No. 20-1388
______
In the

Supreme Court of the United States
__________

ALICE PERKINS, FREDRICK PERKINS,
v.
COMMISSIONER OF INTERNAL REVENUE
__________

Petitioners,

Respondent.

Rule 35 Motion to Substitute an Authorized
Representative for the Estate of Alice J. Perkins
__________
On March 31, 2021, Petitioners Alice Perkins and Fredrick Perkins filed a
Petition for Writ of Certiorari (the “Certiorari Petition”) with the Clerk of the Court.
On June 16, 2021, the Court granted an extension to Respondent Commissioner of
Internal Revenue, without objections from Petitioners’ counsel, to file a response to
the Certiorari Petition on or before July 21, 2021.
Prior to Respondent’s request for extension, the Office of the Solicitor General
for the United States had been informed by Petitioners’ Counsel of the death of
Petitioner Alice Perkins on June 12, 2021. A copy of the death certificate is attached
and made part of this motion as Exhibit “A.”
On June 23, 2021, the Seneca Nation of Indians, Allegany Surrogate’s Court,
issued Letters of Administration to Alice Perkins' son, Mark A. Perkins. A copy of

the Letters of Administration is attached and made a part of this motion as Exhibit
“B.”
Mark A. Perkins is an enrolled member of the Seneca Nation of Indians (Hawk
Clan) and is authorized under the Seneca Nation Probate Law § 5.2(d) to represent
the Estate in all legal proceedings as the Administrator of the Estate of Alice J.
Perkins.
Petitioner Frederick Perkins, joined by Mark A. Perkins, respectfully request
an order substituting Alice J. Perkins with Mark A. Perkins, as Administrator for the
Estate of Alice J. Perkins.
Respectfully submitted,

Of counsel:
GARY D. BOREK
99 Victoria Boulevard
Cheektowaga, NY 14225
(716) 839-4321
TO:

MARGARET A. MURPHY
Counsel of Record for Petitioners
5354 Briercliff Drive Hamburg,
NY 14075
mam@mamurphypc.com
(716) 867-1536

Acting Solicitor General Elizabeth Prelogar
United States Department of Justice
950 Pennsylvania Avenue, N.W. Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@usdoj.gov
Joseph J. Heath, Esq.
512 Jamesville Avenue
Syracuse, New York 13210-3701
jjheath1946@gmail.com
(315) 447-4851

EXHIBIT A

EXHIBIT B

CERTICATE OF SERVICE

I certify that, on July 12, 2021, the foregoing Rule 35 Motion to Substitute
an Authorized Representative for the Estate of Alice J. Perkins was mailed and
emailed to the following parties:
Acting Solicitor General Elizabeth Prelogar
United States Department of Justice
950 Pennsylvania Avenue, N.W. Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@usdoj.gov
Joseph J. Heath, Esq.
512 Jamesville Avenue
Syracuse, New York 13210-3701
jjheath1946@gmail.com
(315) 447-4851

Dated:

Hamburg, New York
July 12, 2021

By: /s/ Margaret A. Murphy
Counsel of Record for the Petitioners

